            HEARING BEFORE THE
      COMMITTEE ON WAYS AND MEANS
       SUBCOMMITTEE ON OVERSIGHT
      U.S. HOUSE OF REPRESENTATIVES

“Implementation and Effectiveness of the Small
      Business Health Care Tax Credit”




               November 15, 2011

                Washington, DC

                  Statement of
        The Honorable J. Russell George
Treasury Inspector General for Tax Administration
                             TESTIMONY OF
                  THE HONORABLE J. RUSSELL GEORGE
          TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                               before the
                     COMMITTEE ON WAYS AND MEANS
                      SUBCOMMITTEE ON OVERSIGHT
                    U.S. HOUSE OF REPRESENTATIVES

                          “Implementation and Effectiveness of the
                          Small Business Health Care Tax Credit”

                                      November 15, 2011


      Chairman Boustany, Ranking Member Lewis, and Members of the
Subcommittee, I thank you for the opportunity to testify on the Small Business
Health Care Tax Credit (Credit). My comments will focus on the Treasury
Inspector General for Tax Administration’s (TIGTA) oversight of the Internal
Revenue Service’s (IRS) efforts to implement the Credit and on
recommendations we have made to improve the implementation.

Background on the Small Business Health Care Tax Credit
       The Patient Protection and Affordable Care Act1 amended the Internal
Revenue Code to provide the Credit. This is a new business credit for employee
health insurance expenses of small businesses and certain tax-exempt
organizations. It is effective for tax years beginning after December 31, 2009.
The Congressional Budget Office estimated the Credit would cost $37 billion over
10 years.

       In general, the Credit is available only to small employers who pay at least
one-half the cost of health insurance coverage for their employees. Similar to
other small employers, small tax-exempt organizations described in Internal
Revenue Code section 501(c) and exempt from tax under section 501(a) may
also qualify for the Credit. When claimed on individual or business returns, the
Credit is nonrefundable (i.e., only available to offset actual tax liability). The
Credit is refundable to tax-exempt organizations, but only to the extent it does not
exceed the total amount of income tax and Medicare tax withholding from
employees’ wages and the employer share of Medicare tax. Employers will
continue to be able to deduct the costs in excess of the Credit amount as an
ordinary expense for employee compensation. A credit is normally preferred to a
deduction because it reduces tax due dollar-for-dollar, as opposed to a
deduction, which decreases taxable income.



1
    Pub. L. No. 111-148, 124 Stat. 119, Section 1421 (2010).


                                                 1
       The law concerning which taxpayers qualify for the Credit and how to
calculate the Credit amount is complex. To address this, the Internal Revenue
Service issued Notice 2010-44 and Notice 2010-82, which set forth detailed
guidance on claiming the Credit. The IRS notices contain the following
information:

To qualify for the Credit, an employer must have the following characteristics:
        Have fewer than 25 full-time equivalents (FTE)2 for the taxable year.
        Have average annual wages for its employees for the year less than
        $50,000 per FTE.
        Maintain a “qualifying arrangement.”3
        Not be an agency or instrumentality of Federal, State, local, or Indian
        Tribal Governments.
        If a tax-exempt organization, be described in Internal Revenue Code
        section 501(c) and be exempt from tax under section 501(a). Tax-exempt
        entities do not qualify if these sections do not apply.

In brief, an employer must follow these steps to determine eligibility for the
Credit:
        Determine the employees who are taken into account for purposes of the
        Credit.
        Determine the number of hours of service performed by those employees.
        Calculate the number of the employer’s FTEs.
        Determine the average annual wages paid per FTE.
        Determine the premiums paid by the employer that are taken into account
        for purposes of the Credit. The premiums must be paid by an employer
        under a qualifying arrangement and must be paid for health insurance that
        meets requirements related to the Credit.

       There are multiple steps to calculate the Credit, and seven worksheets
must be completed in association with claiming the Credit.4 These worksheets
are required to determine the correct amounts to enter on 8 of the 25 lines on

2
  FTEs, as defined by the legislation, means a number of employees equal to the number
determined by dividing the total number of hours of service for which wages were paid by the
employer to employees during the taxable year by 2,080. Additional guidance on FTEs is also
provided in the legislation and in IRS Notice 2010-44.
3
  An arrangement under which the employer pays premiums for each employee enrolled in health
insurance coverage offered by the employer in an amount equal to a uniform percentage (not less
than 50 percent) of the premium cost of the coverage.
4
  The worksheets are contained in the instructions for Credit for Small Employer Health Insurance
Premiums (Form 8941). See Appendix I for a copy of the Form 8941 showing the steps that must
be reported. Appendix III contains a more detailed summary of factors that must be considered in
determining eligibility for the Credit.


                                               2
Form 8941. For example: the number of employees, the number of FTEs, the
average annual wages paid, the premiums paid, and the calculation of the
reduced Credit amount for businesses with over 10 FTEs and average annual
wages over $25,000. In general, the steps include:

        Calculate the maximum amount of the Credit.
        Reduce the maximum Credit in step one in accordance with the phase-out
        rule, if necessary.5
        For employers receiving a State credit or subsidy for health insurance,
        determine the employer’s actual premium payment.

       After eligibility is established and Form 8941 is completed to determine the
Credit amount, the amount is transferred to another form or forms. In the case of
most businesses and individuals, the Credit is reported as part of the General
Business Credit (Form 3800) and then transferred again (to the extent allowed)
to the U.S. Corporation Income Tax Return (Form 1120) or U.S. Individual
Income Tax Return (Form 1040). Partnerships and S corporations6 report the
Credit as part of Schedule K on the U.S. Return of Partnership Income (Form
1065) or the U.S. Income Tax Return for an S Corporation (Form 1120S).
Estates and trusts report the Credit as part of Schedule K on the U.S. Income
Tax Return for Estates and Trusts (Form 1041). Tax-exempt organizations
report the Credit on the Exempt Organization Business Income Tax Return (Form
990-T).

Extensive Efforts Were Made to Implement the Credit
        The IRS completed extensive efforts to implement the Credit and other
Affordable Care Act provisions. Shortly after the legislation was passed, the IRS
began assessing what it would need to do to implement the Credit and tracked
these efforts as they were completed. According to the IRS, it has completed
more than 1,000 outreach and educational actions, including communication
efforts to inform taxpayers and tax professionals about the Credit. The IRS
mailed approximately 4.4 million postcards at a reported cost of approximately $1
million, with basic information on the Credit to businesses that could be affected.
The IRS also used several means to inform tax professionals about the Credit
including press releases, presentations, an internet page to provide information
on the Credit, electronic messages such as alerts and news articles, and a
telephone line for taxpayer and practitioner questions related to the Affordable
Care Act.


5
  Employers with more than 10 but less than 25 FTEs or average wages of more than $25,000
but less than $50,000 will not be eligible for the full amount of the Credit but may qualify for a
reduced amount.
6
  An S corporation is a corporation that elects to be taxed under Subchapter S of Chapter 1 of the
Internal Revenue Code.



                                                3
Guidance on Applying State Subsidy Rules is Being Developed
       While the IRS has issued guidance to taxpayers on how to account for
State subsidies when calculating the Credit, little information was available from
the IRS on which States offer such subsidies. The IRS also did not issue
guidance to its revenue agents7 on which States offer this benefit for
consideration when auditing taxpayers. When we brought this to the IRS’s
attention, the IRS acknowledged that it should do more in these areas and plans
to obtain tax practitioners’ thoughts on how to improve. As of the date of our
report, the IRS was in the process of developing a job aid for revenue agents to
use during exams.

Potential Compliance Issues Exist
        There is a risk of errors or irregularities occurring when the Credit is
claimed or processed. The Credit is new, and both taxpayers and IRS
employees will need to acquaint themselves with the rules. The rules
themselves are complex, making it difficult for taxpayers to follow. The IRS also
had to complete new programming to accommodate the new Form 8941 and
identify potential compliance risks.

       Even though the Credit is specifically targeted to small employers, certain
taxpayers may claim it even when they have not filed required employment tax
returns. A lack of employment tax returns could indicate an erroneous claim and
that the taxpayer is not even an employer, but could also be the result of the
taxpayer using the services of a Professional Employer Organization (PEO).

       Professional Employer Organizations began operating in the early 1980s
and assume some employment-related responsibilities for client companies,
including hiring some or all of the client companies’ employees whose services
are then leased back to the client companies. The PEOs pay wages and file
employment tax returns on employees’ wages that would otherwise be handled
by their client companies. An industry organization, the National Association of
Professional Employer Organizations, describes this relationship as
“co-employment.”

        The PEO, acting as the employer of the leased employees, files
employment tax returns under its own Employer Identification Number, and the
client businesses where the employees work claim other employment-related
expenses and the related deductions and credits (as long as these were paid by
the client business) under their (different) Employer Identification Numbers. This
presents a challenge to the IRS to determine whether a company, which does
not file employment tax returns, qualifies for the Credit without corresponding
with or auditing the company.


7
 An employee in the Examination function who conducts face-to-face examinations of more
complex tax returns such as businesses, partnerships, corporations, and specialty taxes (e.g.,
excise tax returns).


                                                4
        While some businesses, such as companies that only process payroll and
file tax returns on behalf of other businesses, disclose similar arrangements to
the IRS, this is generally not the case for the PEOs. Other arrangements, where
one business acts as an agent for another business, are disclosed on the forms
for Employer/Payer Appointment of Agent (Form 2678) and the Allocation
Schedule for Aggregate Form 941 Filers (Schedule R (Form 941)). However, the
PEO business model is premised on the PEO’s view that it is a legal employer,
not the agent of the client business.

        We identified the issue related to tracking the relationships between the
PEOs and client companies in a previous report.8 In that report, TIGTA
recommended that the IRS work with the Department of the Treasury to explore
all options, including use of the revised Form 2678, to establish accurate links
between the PEOs and their clients. The IRS agreed to establish links between
PEOs and their clients; however, it did not accomplish this.

       The IRS has a high-priority compliance program aimed at identifying and
auditing employers who have not paid employment taxes. Businesses using the
PEOs may unnecessarily fall into this compliance program, resulting in a waste
of IRS resources and an increased burden on the affected taxpayers.

       To administer employment tax laws and to effectively use scarce
compliance resources, the IRS needs to be able to identify businesses that begin
using the services of a PEO, as well as when businesses terminate the use of
those services. Without this ability, the IRS may not take appropriate actions
against the businesses that do not pay employment taxes or improperly claim
credits.

       We recommended that the IRS track PEO relationships by inputting cross-
referenced Employer Identification Numbers on the client business tax accounts.9
IRS management agreed with this recommendation and indicated that it will
revise impacted form instructions to require reporting that will closely track
relationships between businesses and PEOs and Professional Leasing
Organizations filing payroll returns. We plan a follow-up audit to ensure this
issue has been corrected.

        The Credit is refundable to tax-exempt taxpayers, which is a high-risk
factor for erroneous refunds. The IRS advised that, as of September 30, 2011,
compliance personnel from its Tax Exempt and Government Entities Division had
initiated examinations on 769 returns from tax-exempt organizations claiming the
Credit. The IRS also advised that through mid-October 2011, 9,697 tax-exempt
organizations (taxpayers filing Form 990-T) claimed Small Business Health Care

8
  TIGTA, Ref. No. 2007-30-169, Improvements Have Been Made to Monitor Employers That Use
Professional Employer Organizations, but More Can Be Done (September 2007).
9
  TIGTA, Ref. No. 2011-40-103, Affordable Care Act: Efforts to Implement the Small Business
Health Care Tax Credit Were Mostly Successful, but Some Improvements Are Needed
(September 2011).


                                             5
Credits, totaling $36.4 million.

       The Tax Exempt and Government Entities Division implemented a two-
step process for verifying the Credit claimed by tax-exempt organizations on
Form 990-T. First, the IRS developed computer programs to detect potential
errors on Forms 990-T claiming the Credit. This validation process occurs before
funds have been released to the organizations. When errors are detected, the
IRS will freeze any associated refund and notify the organization through a
notice. Tax Exempt and Government Entities Division personnel will review the
Form 990-T to determine if an examination is warranted.

        The second step is an examination of the documentation supporting the
Credit claimed on Forms 990-T identified by the IRS with potential errors.
Examinations can be performed either before the refund is issued or after. If IRS
resources are available before the refund is issued, an examination will be
initiated to determine if the Credit is valid and whether a refund should be issued.
If a determination is made that sufficient resources are not available to perform
an examination, the refund will be released within 45 days. For these returns,
the IRS will provide a listing of cases to its compliance personnel for potential
review during its regular post-refund examination process. At that time, the IRS
can perform an audit of the taxpayer’s records by a correspondence audit, office
audit, or field examination. During these audits, taxpayers will be asked to
provide the documentation necessary to verify the Credit claimed on Form 990-T.

The Volume of Credit Claims Has Been Lower Than Expected
        Despite IRS efforts to inform 4.4 million taxpayers who could potentially
qualify for the Credit, the volume of claims for the Credit has been low. The
Credit was designed to encourage small employers to offer health care
insurance. However, through mid-October 2011, the IRS reported that 309,000
taxpayers (including the tax-exempt taxpayers previously referred to) had
claimed the Credit for a total amount of $416 million.10 This is substantially lower
than the Congressional Budget Office estimate that taxpayers would claim up to
$2 billion of Credit for Tax Year 2010. (Appendix II provides the volumes and
amounts of Credits filed on each type of tax return.)

       Although the IRS sent postcards to businesses that might potentially
qualify for the Credit to make sure they were aware of it, the IRS did not have
ready access to data that would allow it to determine which of these businesses
actually offer health care insurance to their employees or otherwise qualify for the
Credit. Many small businesses do not offer health insurance and would not
qualify for the Credit. Other factors, such as family members working as
employees or the business failing to offer an appropriate health care plan, might
also cause businesses to be ineligible.



10
     Internal Revenue Service statistics on credits claimed under I.R.C. § 45R.


                                                   6
       The IRS spoke with industry groups and professional organizations to try
to determine why businesses were not claiming the Credit. Some reasons given
were: small businesses may take a wait and see approach with the Credit; the
Credit is not worth the time and effort to claim it; taxpayers are unclear on the
specifics of the Credit and rely on tax professionals to claim it; and business-
related information needed to claim the Credit is not readily available.

        The IRS conducted focus groups with tax practitioners in conjunction with
its Nationwide Tax Forums to identify knowledge gaps on the part of taxpayers
and tax practitioners, determine barriers to taxpayers claiming the Credit, and
determine better ways to communicate with stakeholders. In general, the focus
group participants were aware of the Credit, but many could not explain the
specific eligibility requirements and indicated they would not feel confident
calculating the Credit themselves. Few participants had completed Form 8941
for their own business or for their clients. They indicated that the Credit is not
easy to calculate and the payroll information needed to calculate accurately the
Credit amount was not readily available to them. They also stated that the
instructions for calculating the FTEs were not clear causing clients who may have
been eligible for the Credit not to claim it. In addition, many of the practitioners’
clients had not claimed the Credit because they did not offer insurance or did not
meet the eligibility criteria. Practitioners indicated that given the current
economic environment, the Credit was not enough to encourage their clients to
start offering insurance.

Some of the taxpayer errors and omissions were not identified by the IRS
       There was insufficient information on the Form 8941 and other forms filed
with taxpayer returns to identify all errors made when claiming the Credit;
however, based on the information that was available, we concluded that some
claims contained errors11 or were incomplete.

       We reviewed a judgmentally selected sample of different return types as
they were being processed at the Austin, Texas, and Ogden, Utah, IRS
campuses. We chose the returns based primarily on how many forms of a
particular type were available during our visit and whether we noticed any
anomalies during our review. Our review included 257 returns for individuals,
businesses, and tax-exempt organizations. The results of the judgmental sample
cannot be used to estimate the extent of actual errors. The purpose of the
sample was to identify the types of errors that were occurring, but was not
intended to project the frequency of those errors. Additionally, we analyzed
computerized data that were available prior to the end of the filing season for
possible issues. The types of problems we identified through either the case
review or data analysis included:


11
  The Form 8941 does not contain all of the data and calculations needed to verify each step of
Credit eligibility and calculation. It is necessary to complete worksheets in the Instructions for the
Form 8941 in order to correctly claim the Credit. The worksheets are not filed with the return.


                                                  7
       Obvious errors in calculating FTEs. The number of FTEs claimed
       exceeded the number of employees reported.
       Incorrect use of the applicable percentage. Taxpayers either used the
       wrong percentage to calculate the Credit or left that portion of the form
       blank. Tax-exempt small employers should use 25 percent and all other
       small employers should use 35 percent.
       Incorrect calculations of phase-out rules. Taxpayers who had over 10
       FTEs or who paid average annual wages of over $25,000 incorrectly
       calculated the reduced Credit amount.
       Premiums paid that exceeded the maximum premium allowed based on
       the IRS’s State Average Premium for Small Group Markets.
       Taxpayers reported that no employees for whom they paid premiums were
       covered under qualifying arrangements (i.e., the health insurance
       coverage provided to the employees did not meet the specifications in the
       law).
       Missing Form 3800 or missing required information on Form 3800 related
       to a credit received from a pass-through entity (such as a partnership,
       trust, or Subchapter S corporation). Credits from pass-through entities are
       reported on Form 8941. Any remaining pass-through Credit after
       adjustments for all but Form 990-T is reported on Form 3800, which is
       attached to Form 1040, Form 1065, or Form 1041.
       Claims made with no evidence of employment-tax returns having been
       filed to show that the Form 1120 business had employees and was
       entitled to the Credit.

The lack of targeted math error authority could hamper IRS compliance
efforts
       Some of the errors that taxpayers made could have been addressed
during processing because they were straightforward arithmetic errors, which the
IRS has authority to correct. We recommended, and the IRS agreed, to capture
more data from the Form 8941 to facilitate addressing these types of errors.

       Math error authority allows the IRS to correct certain errors during
processing, including calculation errors and entries that are inconsistent or
exceed statutory limits, without having to issue the taxpayer a statutory notice of
deficiency. This is especially important with respect to refundable credits
because such credits are targets for fraud. In our report regarding the Small
Business Health Care Tax Credit,12 we provided examples of specific errors
taxpayers were making when claiming the Credit which are beyond the IRS’s

12
  TIGTA, Ref. No. 2011-40-103, Affordable Care Act: Efforts to Implement the Small Business
Health Care Tax Credit Were Mostly Successful, but Some Improvements Are Needed
(September 2011).


                                              8
current authority to correct through math error processes, but which could be
addressed through legislation providing targeted math error authority. Math error
authority would allow the IRS to improve compliance and avoid burdensome
audits by correcting certain errors or contacting the taxpayer during processing,
but prior to allowing the Credit or paying refunds on potentially erroneous returns.

       IRS management agreed that math error authority is an important
compliance tool, and will explore with the Department of the Treasury whether
math error authority is appropriate for this Credit. The IRS agreed that it is
beneficial to address potential compliance issues as early in the process as
possible and has developed procedures to examine questionable returns prior to
the issuance of refunds.

       Chairman Boustany, Ranking Member Lewis, and Members of the
Subcommittee, thank you for the opportunity to provide TIGTA’s assessment of
the IRS’s administration of the Small Business Health Care Credit. In closing, I
would like to emphasize that TIGTA will continue to monitor the IRS’s
implementation of significant provisions of the Affordable Care Act and will
promptly alert you and the IRS of any problems or emerging issues. I would be
pleased to answer any questions you may have at the appropriate time.




                                         9
                                                 Appendix I



                 Form Used to Claim the Credit




Source: IRS web site.




                              10
                                                                                 Appendix II


                    Volumes of Credits Claimed
                         By Return Types
     Return Type           Number of                 Amounts of            Average Credit
                         Credits Claimed           Credits Claimed            Claimed
Form 1120                      23,724                 $91,458,588              $3,855
Form 1120-S                    88,848              Not Applicable13
Form 1120-C                        62                   $5,959,005              $96,113
Form 1120-F                         2                       $5,113               $2,557
Form 1120-FSC                       0                           $0                   $0
Form 1120-H                       111                     $996,441               $8,977
Form 1120-L                         0                           $0                   $0
Form 1120-PC                       73                     $282,597               $3,871
Form 1120-POL                       0                           $0                   $0
Form 1120-REIT                      0                           $0                   $0
Form 1120-RIC                       0                           $0                   $0
Form 1065                      15,550              Not Applicable14
Form 1041                          27                      $87,106               $3,226
Form 990-T                      9,697                 $36,422,240                $3,756
Form 1040                    171,129                 $280,382,758                $1,638
Total                        309,223                 $415,593,848
Source: IRS, ACA Oversight and Non-Exchange Provisions

Form 1120: U.S. Corporation Income Tax Return
Form 1120-S: U.S. Income Tax Return for an S Corporation
Form 1120-C: U.S. Income Tax Return for Cooperative Associations
Form 1120-F: U.S. Income Tax Return of a Foreign Corporation
Form 1120-FSC: U.S. Income Tax Return of a Foreign Sales Corporation
Form 1120-H: U.S. Income Tax Return for Homeowners Associations
Form 1120-L: U.S. Life Insurance Company Income Tax Return
Form 1120-PC: U.S. Property and Casualty Insurance Company Income Tax Return
Form 1120-POL: U.S. Income Tax Return for Certain Political Organizations
Form 1120-REIT: U.S. Income Tax Return for Real Estate Investment Trusts
Form 1120-RIC: U.S. Income Tax Return for Regulated Investment Companies
Form 1065: U.S. Return of Partnership Income
Form 1041: U.S. Income Tax Return for Estates and Trusts
Form 990-T: Exempt Organization Business Income Tax Return (and proxy tax under
section 6033(e))
Form 1040: U.S. Individual Income Tax Return


13
   Form 1120-S is a pass-through form. Therefore, all credit amounts should have been reported
to individual shareholders.
14
   Form 1065 is a pass-through form. Therefore, all credit amounts should have been reported to
individual partners.


                                              11
                                                                                   Appendix III


                     Summary of Considerations
                      in Determining Eligibility

IRS Notice 2010-44 describes the following factors in determining eligibility for
the Small Business Health Care Tax Credit (Credit):
      Determine the employees who are taken into account for purposes of the
      Credit.
            o Exclude any wages and premiums paid related to partners, most
              owners,15 or family members of these partners or owners.
            o Seasonal workers are disregarded in determining FTEs and
              average annual wages unless the seasonal worker works for the
              employer for more than 120 days during the taxable year, although
              premiums paid on their behalf may be counted in determining the
              amount of the Credit.
            o Employers who are part of a controlled group or affiliated service
              group16 are treated as a single employer.
        Determine the number of hours of service. Consider hours for which
        employees were paid or entitled to payment (including vacations, holidays,
        illness) and use any of three methods for calculations (actual, days-
        worked equivalency based on eight hours of service per day, or weeks-
        worked equivalency based on 40 hours of service per week).
        Determine the number of an employer’s FTEs.
            o Divide (1) the total hours of service (but not more than 2,080 for
              any employee) by (2) 2,080. The result, if not a whole number, is
              then rounded to the next lowest whole number. In some
              circumstances, an employer with 25 or more employees may
              qualify for the Credit if some of its employees work part-time.
        Determine the average annual wages paid. Divide (1) the total wages
        paid for employees taken into account by (2) the number of the employer’s
        FTEs for the year. The result is then rounded down to the nearest $1,000.
        Only wages that are paid for hours of service as determined under Credit-
        related rules are taken into account.




15
   Specifically, sole proprietors, partners in a partnership, shareholders owning more than two
percent of an S corporation, and any owners of more than five percent of other businesses are
not taken into account as employees for purposes of the Credit. For purposes of the Credit, a
very comprehensive list of potential relatives and dependent members of their households are
excluded from eligibility.
16
   Groups covered under section 414(b), (c), (m), or (o) of the Internal Revenue Code.


                                               12
                                                                           Appendix III


          Determine the premiums paid by the employer that are taken into account
          for purposes of the Credit. Only the portion paid by the employer is taken
          into account.
               o Determine the premiums related to qualifying arrangements.
                 Qualifying arrangements may cover a wide range of medical
                 expenses (e.g., hospital or medical policies, certificates, or service
                 plans; dental or vision; long-term care). However, certain specific
                 types of plans do not qualify.17 Different types of plans are not
                 aggregated for purposes of meeting the qualifying arrangement
                 requirement. So if an employer pays for a health insurance plan
                 and a separate vision plan, determinations must be made for each
                 plan with respect to whether it is a qualifying arrangement.
               o The amount of an employer’s premium payments that are taken
                 into account is limited to the premium payments the employer
                 would have made under the same arrangement if the average
                 premium for the small group market in the State (or an area within
                 the State) in which the employer offers coverage were substituted
                 for the actual premium. For example, if an eligible small employer
                 pays 80 percent of the premiums for coverage provided to
                 employees, the premiums taken into account for purposes of the
                 Credit are the lesser of the 80 percent of the total actual premiums
                 paid or 80 percent of the premiums that would have been paid for
                 the coverage if the average premium for the small group market
                 were substituted for the actual premium.




17
     See I.R.C. § 9832(c)(1).


                                             13
